APPENDIX

United States v. James

United States Court of Appeals for the Second Circuit
December 21, 2020, Decided
19-2306

Reporter
2020 U.S. App. LEXIS 39876 *

UNITED STATES OF AMERICA, Appellee, v.
PRESTON JAMES, Defendant-Appellant.

Notice: PLEASE REFER TO FEDERAL RULES
OF APPELLATE PROCEDURE RULE 32.1
GOVERNING THE CITATION TO
UNPUBLISHED OPINIONS.

Prior History: [*1] Appeal from a judgment of
the United States District Court for the Northern
District of New York (Mae D'Agostino, Judge).

Counsel: FOR APPELLEE: EMILY C. POWERS
and RAJIT S. DOSANJH, Assistant United States
Attorneys, for Antoinette T. Bacon, Acting United
States Attomey for the Northern District of New
York, Syracuse, NY.

FOR DEFENDANT-APPELLANT: GEORGIA J.
HINDE, New York, NY.

Judges: PRESENT: JOSE A. CABRANES,
MICHAEL H. PARK, WILLIAM J. NARDINI,
Circuit Judges.

Opinion

Pecan nnO eal

SUMMARY ORDER

UPON DUE CONSIDERATION WHEREOF,
IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that the judgment of the District Court
be and hereby is AFFIRMED.

Defendant-Appellant- Preston James ("James")
contests the sentence imposed on July 10, 2019,
following James's guilty plea to four counts of
distribution of crack cocaine in violation of 21
U.S.C. § 841(a)(1). We assume the parties’
familiarity with the underlying facts, the procedural
history of the case, and the issues on appeal.

James contends that the District Court erred in
calculating his sentence by classifying James as a
career offender under § 4B1.1(a) of the United
States Sentencing Guidelines ("Guidelines") based
on James's prior convictions for attempted drug
trafficking crimes. Section 4B1.1 of the Guidelines
provides that a defendant convicted of "controlled
substance offense" is [*2] a career offender if he
was at least eighteen when he committed the
offense and "has at least two prior felony
convictions of...a controlled substance offense."
The Guidelines do not explicitly state that attempts
and other inchoate crimes are "controlled substance
offense[s],"". but the official commentary to the

 

'U.S.S.G. § 4B1.2(b) defines "controlled substance offense" under §
4B1.1 as "an offense under federal or state law, punishable by
imprisonment for a term exceeding one year, that prohibits the
manufacture, import, export, distribution, or dispensing of a

(la)
_ da
2020 U.S. App. LEXIS 39876, *2

Guidelines, U.S.S.G.§ 4B1.2 cmt. nl.
("Application Note 1") does.? The District Court
classified James's prior attempt convictions as
"controlled substance offense[s]". based on
Application Note 1. James argues that the District
Court should not have relied on Application Note 1
because it is inconsistent with the text of the
Guidelines and is therefore invalid.

Our precedents foreclose James's argument. We
have repeatedly and recently affirmed the validity
of Application Note 1 and we decline to revisit this
holding now. See United States v. Richardson, 958
F.3d 151 (2d Cir. 2020) ("Application Note 1 is not
inconsistent with, or a plainly erroneous reading of
§ 4B1.2") (quotation marks and internal citations
omitted); accord United States v. Tabb, 949 F.3d
81, 87 (2d Cir. 2020) ("[TJhe [Sentencing]
Commission had the ‘authority to expand the
definition of "controlled substance offense" to
include aiding and abetting, conspiring, and
attempting to commit such offenses’ through
Application Note 1 .") (quoting United States v.
Jackson, 60 F.3d 128, 133 (2d Cir. 1995)). We
therefore affirm [*3] the judgment and sentence of
the District Court.

CONCLUSION

We have reviewed all of the arguments raised by
James on appeal and find them to be without merit.
For the foregoing reasons, we AFFIRM the July
10, 2019, judgment and sentence of the District
Court.

NN aa
End of Decument

SSeS
controlled substance (or a counterfeit substance) or the possession of
a controlled substance (or a counterfeit substance) with intent to
manufacture, import, export, distribute, or dispense.”

2[CJontrolled substance offense! include[s] the offenses of aiding
and abetting, conspiring, and attempting to commit such offenses."
U.S.S.G. § 4B1.2 cmt. n.1.
